No. 20-853
IN THE

Supreme Court of the United States

ANDREI IANCU, UNDER THE SECRETARY OF COMMERCE
FOR INTELLECTUAL PRPERTY AND DIRECTOR, UNITED STATES
PATENT AND TRADEMARK OFFICE,
Petitioner,
v.
FALL LINE PATENTS, LLC, et al.,
Respondents,
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

JAMES GELSIN MARX RESPONSE IN SUPPORT OF THE
PETITION FOR WRIT OF CERTIORARI

Edward M. Cannon, Principal Counsel
Philip M. Nelson
KNOBBE, MARTENS, OLSON
& BEAR, LLP
2040 Main Street, 14th Floor
Irvine, CA 92614
(949) 760-0404
Attorneys for Respondent
James Gelsin Marx
March 22, 2021

i
QUESTION PRESENTED
Given that respondent James Gelsin Marx agrees with petitioner that the
Court’s decision in Arthrex will govern the Marx case, should the petition in the Marx
case be held and then disposed of as appropriate following the issuance of this Court’s
judgment in Arthrex?

ii
CORPORATE DISCLOSURE STATEMENT
Respondent James Gelsin Marx is an individual.

-1I. INTRODUCTION
Respondent James Gelsin Marx agrees with petitioner that the Court’s
decision in United States v. Arthrex, Inc., Case No. 19-1434, and the consolidated
cases (Nos. 19-1452 and 19-1458), may warrant granting, vacating, and remanding
to the Federal Circuit. Marx thus agrees that, in the Marx case, the Court should
hold the petition for its decision in Arthrex, and then dispose of it accordingly.
II. STATEMENT
Respondent Marx appealed patent examiner rejections of his claims in U.S.
Patent Application No. 14/231,348 to the Patent Trial and Appeal Board. The Board
affirmed the examiner’s rejections.
Marx appealed to the Federal Circuit and moved that the Board’s decision be
vacated and remanded on the ground that the Board was not properly appointed
under the Appointments Clause. The Federal Circuit stayed the motion pending that
court’s resolution of a similar motion in In re Boloro Global Ltd., 963 F.3d 1380 (Fed.
Cir. 2020). After granting the motion in Boloro, the court granted Marx’s motion,
vacated the Board’s decision, and remanded the case to the Board for proceedings
consistent with the Federal Circuit’s decisions in Arthrex and Boloro. The remanded
case before the Board was stayed in view of this Court’s pending Arthrex cases by
operation of a general order previously issued by the Board. See Gen. Order in Cases
Remanded Under Arthrex, Inc., 941 F.3d 1320 (Fed. Cir. 2019) (PTAB May 1, 2020).
On December 22, 2020, the government filed this petition for certiorari, which
asks the Court to hold its petition pending disposition of United States v. Arthrex,
Inc., No. 19-1434, and the consolidated cases (Nos. 19-1452 and 19-1458), and then to
34561632

-2dispose of it as appropriate in light of the Court’s Arthrex ruling. The Court docketed
the petition on December 28, 2020.
The Court called for a response to the petition on February 22, 2021. As noted
by respondents Fall Line Patents, LLC and Snyders Heart Valve LLC, the Court’s
call appears to have been addressed only to counsel for those respondents. Fall Line
Response at 3. Thus, it is not clear that the Court called for Marx’s response.
Nevertheless, out of caution, Marx submits this response on behalf of himself alone.
III. ARGUMENT
Marx adopts petitioner’s argument section in full. See Pet. 9-10. For example,
Marx agrees with petitioner that, if the Court reverses in Arthrex, then the Court
should vacate the judgment of the Federal Circuit in the Marx case and remand for
further proceedings. The petition in the Marx case should thus be held pending the
issuance of this Court’s decision in Arthrex, and then should be disposed of as
appropriate in light of that decision.
IV. CONCLUSION
For the Marx case, the Court should hold the petition pending its decision in
Arthrex, and then dispose of it accordingly.
Respectfully submitted,
Edward M. Cannon, Principal Counsel
Philip M. Nelson
KNOBBE, MARTENS, OLSON & BEAR, LLP
2040 Main Street, 14th Floor
Irvine, CA 92614
(949) 760-0404
Attorneys for Respondent
James Gelsin Marx
34561632

